Case No.:

In The Supreme Court of The United States

In Re., Zoe Ajjahnon, Petitioner

On Petition for Writ of Mandamus to the U.S. District Court, District of New Jersey
(Case No.: 2:19-cv-16990 BRM-JAD)

PROOF OF SERVICE
I

do swear and declare that on this date,^-^/''/ 2021 as

required by Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE
TO PROCEED IN FORMA PAUPERIS and PETITION FOR WRIT OF MANDAMUS
on each party to the proceedings or the party’s counsel, and on the district court judge
named in list of parties by commercial carrier FedEx for delivery within three calendar
days.
The names and addresses of those served are: 1) Counsels for defendant St. Jospehs
Medical Centre: Jeffrey A. Krompier, esq; Jason M. Altschul, esq Krompier & Tamn,
LLC, 8 Wood Hollow Rd., Suite 202, Parsipanny, NJ 07054; 2) Counsels for defendant:
RWJ Barnabas Health, Inc. Robert J. Logan, esq.; Lauren M. Strollo, esq.Vasios, Kelly &
Strollo, P.A., 2444 Morris Ave., Suite 304, Union, NJ 07083-5711; 3) Honorable Brian
R. Martinotti, USDC Judge, Martin Luther King Building & U.S. Courthouse, 50 Walnut
Street, Newark, NJ 07102
I declare under penalty of perjury that the foregoing is true and-correct
Executed om j// ^
2021
//

Zoe-Ajjahnon, Pro Se, Rramtiff - Petitioner

